            TESTIMONY OF DONALD A. GAMBATESA 


                       INSPECTOR GENERAL 


      U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT 




                          SUBMITTED TO: 


 THE COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM, 


SUBCOMMITTEE ON NATIONAL SECURITY AND FOREIGN AFFAIRS 


                U.S. HOUSE OF REPRESENTATIVES 




                 AFGHANISTAN AND PAKISTAN: 


       ACCOUNTABILITY COMMUNITY OVERSIGHT OF A 


                 NEW INTERAGENCY STRATEGY 




                         SEPTEMBER 9, 2009 




      Chairman Tierney, Ranking Member Flake, and Members of the

Committee, thank you for inviting me to testify today on behalf of the

Office of Inspector General (OIG) for the U.S. Agency for International

Development (USAID). I am pleased to be here along with my colleagues

from other oversight organizations, with whom we work closely as we

execute our audit, inspection, and investigative responsibilities in
Afghanistan and Pakistan. We appreciate the subcommittee’s interest in

the oversight of U.S. development and reconstruction funds that are

provided to these two countries. We also acknowledge your expectation

that these funds be spent wisely, not only to provide for effective security

and economic development in those countries but also to enhance our own

national security.

                        USAID Universe and Resources

      USAID devotes substantial funding to this region, obligating nearly

$11 billion from fiscal year 2002 through 2009: $8 billion for Afghanistan

and approximately $2.8 billion for Pakistan. In addition, we have been

informed that USAID plans to maintain its staff and recruit new employees

to achieve a total of 334 positions in Afghanistan and 243 in Pakistan. This

represents the Agency’s largest recruitment effort in almost 20 years.

               OIG Staffing and Leverage of External Resources

      Our staff of approximately 210 Foreign Service Officers and Civil

Service employees oversees U.S. foreign assistance programs that exceed

$15 billion. These programs are being implemented in about 100 countries

around the world by USAID, the Millennium Challenge Corporation, the

United States African Development Foundation, and the Inter-American

Foundation.



                                    –2–

       Since fiscal year 2003, OIG has spent over $4.3 million in base

appropriations and supplemental funding to oversee USAID’s activities in

Afghanistan. In Pakistan, we expect to spend approximately $3 million on

oversight operations in fiscal years 2009 and 2010 alone. Historically, we

have provided general oversight of these countries from our regional office

in the Philippines, increasing our staffing levels there as USAID funding in

Afghanistan and Pakistan have increased.

      To further enhance our oversight efforts, we recently established a

full-time presence of Foreign Service officers in Afghanistan and Pakistan,

placing an auditor and a criminal investigator in Kabul and two auditors

and one criminal investigator in Islamabad. These employees will be in

addition to those currently providing oversight in these two countries from

our office in the Philippines.

      In Kabul, we have assigned senior personnel who have prior

experience conducting audits and investigations in Afghanistan. Through

our contacts with local public accounting firms in Afghanistan, we have

developed a list of eight firms that are eligible to perform audits of USAID-

funded programs under our supervision. These firms help us expand audit

coverage of locally incurred costs that are highly vulnerable to waste and

misuse. We have provided financial audit training to representatives of



                                    –3–

five of these firms as well as to the Government of Afghanistan’s supreme

audit institution. Our excellent relationship with the USAID mission in

Afghanistan, which has developed over many years, facilitates open

communication, and in fact the mission staff approaches us frequently with

problems or questions.

      In Islamabad, we have assigned one of our most senior criminal

investigators, who has many years of USAID experience and who recently

completed an assignment to the Commission on Wartime Contracting in

Iraq and Afghanistan—an independent, bipartisan commission established

to study contracting practices in these two countries. We have also assigned

two senior auditors, one of whom has 4 years of experience conducting

audits in the region and another who has extensive worldwide experience

and is fluent in Urdu, one of Pakistan’s official languages. We have access

to 10 local public accounting firms who can assist with audits or perform

financial audits under our supervision. We have provided financial audit

and related training to 143 participants from these audit firms, the

Government     of   Pakistan’s   supreme   audit   institution,   and   other

organizations. We have entered into a memorandum of understanding with

the supreme audit institution to better ensure that USAID budget support

funding provided to Government of Pakistan ministries can be audited. As



                                    –4–

additional USAID funds flow to the Government of Pakistan, this

relationship will be increasingly important. As in Afghanistan, we have an

excellent relationship with the USAID mission in Pakistan, and our offices

engage in extensive formal and informal communication.

        In the event that Congress passes legislation to significantly increase

foreign assistance to Pakistan in the next several years, we would seek to

open a regional office in Pakistan or in another country within the region.

Meanwhile, we are continuing our efforts to increase our staffing in

Afghanistan and have requested the Department of State to authorize three

additional Foreign Service officers in the country.

                                Accomplishments1

        To date in Afghanistan, we have conducted 27 program performance

audits, in which we have made 84 recommendations for operational

improvement of USAID’s programs. Moreover, we have issued nearly

30 financial audits that have identified more than $8 million in questioned

costs, of which $1.3 million was sustained.

        In addition to conducting audits, we investigate allegations of fraud

and waste in these countries.            In Afghanistan, we have opened 44

investigations that have resulted in 8 indictments, 9 arrests, and 3


1
    See http:/www.usaid.gov./oig for more detailed OIG performance data.


                                          –5–

convictions, and savings and recoveries have totaled $87 million. We have

had two recent investigations involving security contracts in Afghanistan.

In one, a defendant pled guilty to conspiracy this past week for his role in a

scheme to solicit kickbacks in connection with the awarding of private

security contracts.

      In the other, a seven-count indictment             was    returned   on

September 30, 2008, involving four individuals who had obtained

reimbursement for inflated expenses submitted for rental vehicles, fuel, and

security personnel. The company and the individuals charged have been

suspended indefinitely from doing business with the U.S. Government, and

one of the former employees of the contractor is serving a 2-year sentence

for his involvement with the fraud. To date, more than $24 million has

been saved in connection with this investigation.

      You may be aware of our recent investigation involving the United

Nations Development Program. This investigation revealed that the grant

recipient had improperly withdrawn $6 million from a USAID letter of

credit and spent nearly $2 million in additional funds without authorization.

We identified several construction projects that the grant recipient had not

completed and others that had construction defects. In addition to issuing




                                     –6–

bills of collection amounting to more than $8 million, USAID saved close

to $14 million by canceling contracts related to the cooperative agreement.

       In Pakistan since 2002, we have conducted 5 program performance

audits and made 12 recommendations for operational improvement. Our

23 financial audits conducted in Pakistan have identified approximately

$6 million in questioned costs, of which $3.5 million was sustained, and we

have several ongoing investigations in Pakistan.

                           Coordination of Activities

      With respect to coordinating interagency operations, we have been

working continually with staff at USAID and the office of Ambassador

Richard Holbrooke, as well as with the Ambassadors to Afghanistan and

Pakistan to keep them informed about our upcoming plans and

coordination efforts.

      We in the oversight community have been working diligently for

several years to coordinate our oversight efforts in Afghanistan.

      Our criminal investigators work closely with the National

Procurement Fraud Task Force, created by the Department of Justice, to

identify procurement fraud associated with Government contracting

activity that relates to national security and other programs. We are also

members of the International Contract Corruption Task Force, an



                                     –7–

interagency law enforcement group that works to investigate contract fraud

and dismantle corruption related to U.S. overseas contingency operations,

such as those in Afghanistan.

      In August 2007, the Inspectors General of USAID, the State

Department, and the Department of Defense, along with the Government

Accountability Office (GAO), issued to Congress a joint audit plan for

Afghanistan.    In 2008, this interagency working group joined the

Southwest Asia Joint Planning Group.      Chaired by the Department of

Defense, this group issued its first Comprehensive Audit Plan for

Southwest Asia in June 2008, which included plans for Afghanistan and

Pakistan.

      A new coordination group chaired by my office was formed in June

2009 in response to the administration’s focus on Afghanistan and

Pakistan. This subgroup of the Southwest Asia Planning Group consists of

representatives from the Offices of Inspectors General for the Department

of Defense, the Department of State, the U.S. Agency for International

Development, and the Government Accountability Office, as well as the

Special Inspector General for Afghanistan Reconstruction.




                                   –8–

       The subgroup members have been working to minimize overlapping

efforts and reduce the burden that the oversight process places on program

management staff. Whenever feasible, the subgroup will:

   •    Work jointly on assignments to ensure that areas of mutual

   concern are examined most efficiently.

   •    Sequence oversight assignments to facilitate the sharing of

   information among oversight organizations.

   •    Share information (program documentation, analyses, findings,

   conclusions, and reports) with one another to reduce information

   requests to program management staff.

   •    Propose that program management staff establish “e-rooms” or

   other shared network spaces where program management staff can

   create, edit, and store program documentation and make program

   documentation available to oversight organizations.

       There may be instances in which subgroup members will be required

to conduct audits or inspections that cover programs or sources of funding

that are closely related yet must be reviewed separately because they are

governed by different legislative or administrative mandates. In these

cases, the members will seek opportunities to conduct in-country fieldwork




                                   –9–

at the same time to minimize the number of separate visits by oversight

organizations.

                        FY 2010 Oversight Plans

      The Afghanistan-Pakistan Subgroup issued an oversight plan in

August 2009, which I have attached for the record. This plan corresponds

to strategies developed by the U.S. Government for assisting Afghanistan

and Pakistan in addressing high-priority issues. The five areas addressed in

the plan are (1) security; (2) governance, rule of law, and human rights;

(3) economic and social development; (4) contracting oversight and

performance; and (5) crosscutting programs. The subgroup will monitor

this plan and make adjustments as necessary during quarterly meetings.

      Under the oversight plan, USAID/OIG is involved primarily with

overseeing programs that support economic and social development in

Afghanistan and Pakistan, but we are also conducting an audit of private

security contractors.

       Oversight of Private Security Contractors in Afghanistan


      Like other agencies, USAID relies on private firms to supply a wide

variety of services in Afghanistan. Private security contractors are vital to

U.S. efforts to stabilize and reconstruct Afghanistan.         Nevertheless,

USAID’s funding of armed contractors raises concerns about transparency


                                    –10–

and accountability, including concerns about the organizations and

individuals being contracted to provide security, their level of training, and

their awareness of policies and regulations applicable to them.

      My office is conducting an audit of private security contractors in

Afghanistan to determine whether USAID is providing effective oversight

of these contractors (to include whether the contractors are employing

responsible personnel and reporting all incidents) and reviewing USAID’s

expenses for private security services. We will be coordinating our efforts

with the Special Inspector General for Afghanistan Reconstruction as that

office undertakes related audits.


                    Economic and Social Development


      In the year ahead, we will oversee various economic and social

development programs. In Afghanistan, we will be reviewing programs

that are designed to increase production of legal crops and decrease poppy

production, support economic growth, improve health and education

services, improve infrastructure (such as power, water, and transportation),

and improve the quality of governance. We plan to conduct 10 audits of

these programs in Afghanistan in the remainder of this fiscal year and in

the coming year.



                                    –11–

      For example, we will be reviewing a $57 million USAID program in

Afghanistan to construct hospitals, midwife training centers, and provincial

teacher resource colleges in order to increase access to quality medical care

and education for all Afghans.      The program intends to place special

emphasis on promoting equitable access for women and girls.

      We also will audit the USAID program titled “Afghanistan Vouchers

for Increased Production in Agriculture,” which is expected to be funded at

$360 million.    This program is designed to distribute wheat seed and

fertilizer to small farmers through a voucher and training program. Target

beneficiaries will be vulnerable but viable small farmers with 2 hectares of

arable land or less.

      In Pakistan, we will also audit USAID programs designed to

promote economic and social development. Three of the seven audits

planned for these program areas in Pakistan affect the federally

administered tribal areas, or FATA.

      One of the three programs involves a $43 million initiative in the

FATA to help the Government of Pakistan, civil society, and the private

sector to improve economic and social indicators.           Another FATA

program, funded by $300 million, intends to create jobs, increase incomes

and teach employable skills, improve infrastructure, and support the



                                      –12–

business community.       Complementing these efforts is a $150 million

program to increase access to education, health care, clean water, and

sanitation in the FATA.

      I want to emphasize that, in both Afghanistan and Pakistan,

dangerous security conditions often pose great challenges to effective

oversight.   Security issues and restrictions can make field visits difficult,

and security arrangements for these visits can change at the last minute.

      We have taken steps to mitigate these difficulties and maximize the

impact of our oversight efforts. For example, local public accounting firms

sometimes have access to areas that are off limits to U.S. Government

personnel because of security conditions. As previously mentioned, we

have arrangements in place to access the capabilities of 18 accounting

firms in Afghanistan and Pakistan. Our memorandum of understanding

with the Auditor General of Pakistan provides us access to Government of

Pakistan audit resources as well.

                                Conclusion

      We know that the success of USAID programs in Afghanistan and

Pakistan is critically important to the administration and Congress. We

will continue to work with our colleagues to provide timely, effective

oversight of foreign assistance programs in Afghanistan and Pakistan.



                                    –13–

      The members of the Afghanistan-Pakistan Subgroup have been

working together to address oversight in this region for several years, and I

am confident that we are effectively coordinating with one another to

provide the best oversight possible. I want to emphasize, however, that

oversight is everyone’s responsibility: that of the Inspector General

community, the agencies we oversee, and contractors and subcontractors

who implement foreign assistance programs. We must all be vigilant to

ensure that tax dollars are not wasted.

      I would be happy to answer any questions you may have at this time.




                                     –14–

